Appendix
TABLE OF CONTENTS
Page
APPENDEX
APPENDIX U.S. SUPREME COURT
APPENDEX A: Motion for Extension of Time for
filing Cert of Writ. July
8/2019:
la
APPENDIX B: United States Court of the United
States Grant Writ of Cert by Justice Gorsuch.
07/16/2019:
3a
APPENDEX C: United States Court of the United
States Notice List,
5a
APPENDIX OF 8™ Cir

6a

Appendix D: Mandate by United State Court of
Appeals for the 8th Circuit:
05/24/2019:................................ ........................... 6a
Appendix E: Ordered by United State Court of
Appeals for the 8th Circuit: Petition for rehearing
en banc is denied. The petition for rehearing by
panel is also denied:
05/16/2019:
8a

11

TABLE OF CONTENTS
Page
Appendix F: Ordered by United State Court of
Appeals for the 8th Circuit-' that the judgment of the
District Court of summarily affirmed.
02/20/2019:
10a
Appendix G: Ordered by United State Court of
Appeals for the 8th Circuit: Motion to amend
petition for rehearing Granted:
04/17/2019:.................. ............................................. 12a
Appendix H: Ordered by United State Court of
Appeals for the 8th Circuit: Requesting Electronic
format—Appendices not required:
09/18/18
14a
Appendix: I Notice letter for the United State Court
of Appeals for the 8th Circuit; No briefing schedule
will be established, and no additional pleadings are
required from you:
09/18/18
16a
APPENDIX OF THE DISTRICT COURT
Appendix J: United States Western District Court
of MO. Order concerning Pretrial Procedures for
action commenced by Pro se Plaintiff:
03/23/18:
18a

Ill

TABLE OF CONTENTS
Page
Appendix K: United States Western District Court
of MO. Order to Dismiss, District Court Doc. 10,
Motion to Dismiss entered,
06/25/2018
21a
Appendix L: United States Western District Court
of MO. Order to Dismiss, District Court Doc. 13,
Motion to Dismiss entered,
06/25/2018
29a
Appendix M: United States Western District Court
of MO. Order to Dismiss, District Court Doc. 41,
entered,
08/7,2018
37a
Appendix N: United States Western District Court
of MO. Request for Reconsideration Doc. 67 Denied
for Doc, 57,58,59, entered
08/07/2018..
50a
Appendix O: United States Western District Court
of MO. Order denying Motion for default Doc. 47,
Denied, Doc, 51, Motion granted to dismiss entered
08/16/18:
59a
Appendix P: United States Western District Court
of MO. Judgement Order IN CIVIL CASE Doc. 57,

IV

TABLE OF CONTENTS
Page
58, 59, 41, 47 entered
08/21/18:.......;..............

69a

Appendix Q: United States Western District Court
of MO. Response to order to show Cause for Doc.
[51] District Court Docket 68,
entered
7/24/2018
72a
Appendix R: United States Western District Court
of MO. Statement of the federal judge defendants
regarding proposed Default Judgement Doc. [51]
for Doc. [47] entered
06/18/2018
77a
Appendix S: United States Western District Court
of MO. Response Statement of the federal judges
defendants regarding proposed default judgement
Doc. [51]. For Doc. 69
entered
96a
Appendix T: United States Western District Court
of MO. DOC [69] REPLY STATEMENT OF
FEDERAL JUDGE DEFENDANTS REGARDING
PROPOSED DEFAULT JUDGEMENTS [51] DOC.
[47] Entered
07/24/2018
120a
Appendix U: United States Western District Court

V

TABLE OF CONTENTS
Page
of MO. Response Reply to Statement of the
FEDERAL JUDGE DEFENDANTS REGARDING
proposed Default Judgment re. 51 to Doc.
47dismissed, entered
07/25/2018
128a
Appendix V: United States Western District
Court of MO. Complaint Exhibit Supplemental
Index as a part of the District Courts official record
of Case No. 2G7-cv-04254-NKL
entered
01/08/2018...
140a
Appendix Original case," 2001
Appendix W- United States Western District Court
of MO. Macomb County Lt. AFFLDAVIT OF LYNN
BAUMGARTEN
Dated
4/Dec./05
144a
Appendix X: United States Western District Court
of MO. Macomb County official, AFFLDAVIT OF
JOHN HERTEL This day of October 2002, Noted
no date
entered
147a
Appendix Y: United States Western District Court
of MO. Macomb County official Corporate Counsel

VI

TABLE OF CONTENTS
Page
James Meyerand’s signed motion to dismiss or
summary
149a
judgement
Appendix Z: United States Western District Court
of MO. Macomb County Search Warrant issued on
April 3rd
161a
1998
Appendix 2-A' U.S. Justice Department
letter dated July 19th 2007............... .......

163a

Appendix 2-B: Federal Bureau of
Investigation letter response Dated
May 15 th
2007........................................................

164a

Appendix 2-C: Raimondo Brief filed in Dec 2010 in
civil 1st Amendment Case 2:i0-cvl5107 before
Judge
166a
Steeh
Appendix 2-D: 7/10/2019 U.S. Attorney: Michigan
leads in public corruption cases / State/
201a
thenewsherald.com
Appendix: 2-E: United States Western District
Court of MO District Courts official
Case No. 2:i7-cv04254'NKL Count 1

Vll

TABLE OF CONTENTS
Page
OBSTRUCTION OF JUSTICE BY Covering-up a
Violated Search and Seizure Warrant entered
01/08/2018
205a
Appendix: 2-F: United States Western District
Court of MO District Courts official
Case No. 2:i7-cv04254-NKL Count 2 Conspiracy
Denying 1st Amendment Rights to Petition for
Redress entered
01/08/2018
209a
Appendix: 2-G: United States Western District
Court of MO District Courts official Case No.
2:i7-cv04254-NKL Count 3 Conspiracy;
Denying 4th Amendment Due Process
entered
01/08/2018
212a
Appendix: 2-H: United States Western District
Court of MO District Courts official
Case No. 2:i7-cv-04254-NKL Count 4
Conspiracy; Denying 5th Amendment Due Process
Clause entered
01/08/2018
215a
Appendix: 2-L United States Western District
Court of MO District Courts official Case No.
2:i7-cv04254-NKL Count 5 Conspiracy Denying

vm
TABLE OF CONTENTS
Page
14th Amendment Due Process Clause entered
01/08/2018.............................,................................. 218a
Appendix: 2-J: United States Western District
Court of MO District Courts official
Case No. 2:i7-cv04254-NKL Count 6
Conspiracy; Denying Equal and Fair
Treatment of the Law. entered 01/08/2018....... 221a
Appendix: 2-R: United States Western District
Court of MO District Courts official
Case No. 2:i7-cv04254-NKL Count 7
Conspiracy; Fraud Upon The Court,
entered
01/08/2018
223a
Appendix: 2-L: United States Western District
Court of MO District Courts official
Case No. 2:i7-cv-04254-NKL Count 8
Conspiracy; Engaging in Social Justice
Policies entered
01/08/2018
228a
Appendix: 2-M: United States Western District
Court of MO District Courts official
Case No. 2:l7-cv04254-NKL Count 9
Conspiracy; Taxation With-out Federal
Representation enteredO 1/08/2018
232a

IX

TABLE OF CONTENTS
Page
Appendix: 2-N: United States Western District
Court of MO District Courts official
Case No. 2:i7-cv-04254-NKL Count 10
Conspiracy; Intentional Infliction of Emotional
Distress, entered
01/08/2018
238a
Appendix: 2,0: United States Western District
Court of MO District Courts official
Case No. 2:i7-cv-04254-NKL Count 11
OBSTRUCTION OF JUSTICE BY Covering-up a
Violated Search and Seizure Warrant entered
01/08/2018
246a
Appendix: 2-P United States Western District
Court
of MO District Courts official record of Case No.
2:i7-cv04254-NKL Complaint; Establishing the
Elements of Fraud upon the Court
249a
Appendix: 2-Q United States Western District
Court of MO District Courts official record of Case
No. 2:i7-cv04254-NKL Complaint, Complaint
Criminal
Conspiracy
250a
Appendix: 2-R United States Western District

;

X

TABLE OF CONTENTS
Page
Court of MO District Courts official record
of Case No. 2:l7-cv04254-NKL Complaint Claim
252a
for Relief.
Appendix^ 2-S United States Western District
Court of MO District Courts official record of Case
No. 2:l7-cv04254-NKL Compliant LEGAL
ARGUMENT
254a
Appendix: 2-T United States Western District
Courtof MO District Courts official record of Case
No. 2:i7-cv04254-NKL Compliant, CLAIM FOR
RELIEF
271a
Appendix: 2-U United States Western District
Courtof MO District Courts official record of Case
No. 2:i7-cv04254-NKL Compliant,
STIPULATION OF FACTS IN SUPPORT OF
CLAIM FOR RELIEF,
277a

8a
Appendix E
UNITED STATES COURT OF APPEALS
FOR THE EIGHT CIRCUIT
No: 18-2992
Joseph Raimondo
Appellant
v.
Denise Paige Hood, U.S. District Chief Judge, U.S.
Employee, et al.
Appellees

Appeal from U.S. District Court for the Western
District of Missouri - Jefferson City
(2:i7-cv-04254-NKL)

ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
Judge Grasz, did not participate in the
consideration or decision of this matter.

10a
Appendix F
UNITED STATES COURT OF APPEALS
FOR THE EIGHT CIRCUIT
No: 18-2992
Joseph Raimondo
Appellant
v.
Denise Paige Hood, U.S. District Chief Judge, U.S.
Employee; Lawrence Paul Zatkoff, U.S. Employee;
George Caram Steeh, U.S. District Judge, U.S.
Employee; John Corbett O’Meara, U.S. District
Judge, U.S. Employee, Commissioner John
Koskinen, U.S. Employee! Carolyn Chiechi,
Federal Tax Judge, U.S. Employee! Macomb
County, a County of the State of MI; Lt. Lynn
Baumgarten, Employee of M/C MI; James
Meyerand, an Employee of M/C MI; Village of
Armada, an incorporated MI Village! Ben Delecke,
an employee servant of the A/Village; Thomas
Meyers, Attorney in interest of A/Village; Capac
State Bank, John Doe, Democratic Nation
Committee; United States of America
Defendants-Appellees

Appeal from U.S. District Court for the Western

11a
District of Missouri — Jefferson City
(2:i7-cv-04254-NKL)

JUDGMENT

Before
COLLOTON,
SHEPHERD
ERICKSON, Circuit Judges.

and

This court has reviewed the original file of the
United States District Court. It is ordered by the
court that the judgment of the district court is
summarily affirmed. See Eight Circuit Rule 47A(a).
February 20, 2019

Order Entered at the Direction of the Courts
Clerk. U.S. Court of Appeal. Eight Circuit.
/s/ Michael E. Gans

12a
Appendix G
UNITED STATES COURT OF APPEALS
FOR THE EIGHT CIRCUIT
No: 18-2992
Joseph Raimondo
Appellant
v.
Denise Paige Hood, U.S. District Chief Judge, U.S.
Employee, et al.
Appellees

Appeal from U.S. District Court for the Western
District of Missouri - Jefferson City
(2:i7-cv-04254-NKL)
ORDER
Appellant’s motion to amend petition for rehearing
is granted. The clerk is directed to file the petition
for en banc rehearing.

20a
should be stated in the proposed
order.

scheduling

The parties are reminded that
1. Pursuant to LR 26 .1 (b), the filing of
motions does not postpone discovery.
2.
Extensions
of discovery
deadlines are
governed by LR 16.3.
3. The number and form of interrogatories are
governed by Federal Rules Civil
Procedure 33.
4. The form of answers to certain discovery
requests is provided, in LR 26.2.

s/NANETTEK.LAU GHREY
NANETTE K. LAUGHREY
UNITED STATES
DISTRICT JUDGE
Dated:

March 23, 2 018

21a
Appendix K
IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT of MISSOURI

JOSEPH RAIMONDO
Plaintiff
v.

Case NO; 17-4254-CV-NKL.

U. S. DISTICT CHIEF JUDGE,
DENISE PAGE HOOD et al„
Defendants

ORDER
Pending before the Court is Defendants
Village of Armada, Macomb County, Ben Delecke,
James Meyerand, Thomas Meyers, and Lt. Lynn
Baumgarten's Motion to Dismiss, Doc. 10. For
the following reasons, the motion is granted.
I.

Background 1

This lawsuit is based primarily on events
that occurred over twenty years ago in Armada,
Michigan. On April 6, 1998, law enforcement
officers from the Macomb County Sherriffs
Department, Clinton Township, and the Village
of Armada conducted a raid on Plaintiff Joseph
Raimondo's property to investigate allegations

22a
that he was operating an illegal "chop shop."
Although the officers obtained a warrant,
Plaintiff alleges that the officers violated the
warrant, and unlawfully seized private property.
Plaintiff also alleges that the officers prosecuted
Plaintiff for a purpose other than bringing an
offender to justice, and then retaliated against
him when he sought relief.
1

The facts are found in Plaintiffs Amended
Complaint, Doc. 6, as well as court documents from several
related proceedings. The Court takes judicial notice of those
documents for purposes of the motion to dismiss. See Nixon
v. Couer D'Alene Tribe, 164 F.3d 1102, 1107 (8th Cir.
1999) ("[Mlaterials that are part of the public record or do not
contradict the complaint may he considered by a court in
deciding a Rule 1 2(b)(6) motion to dismiss.").

On April 6, 2001, Plaintiff filed a lawsuit in
the United States District Court for the Eastern
District of Michigan, seeking damages related to
the allegedly unlawful search and seizure. 2
The Village of Armada, Macomb County, Ben
Delecke, and Lt. Lynn Baumgarten were each
named as defendants in the lawsuit. On March 5,
2002, Plaintiff filed a second lawsuit in the same
district, against, among others, the Village of
Armada, Macomb County, Ben Delecke, and
Lt. Lynn Baumgarten. 3 The two cases were
consolidated, and on September 30, 2003, the
district court granted summary judgment
in
favor of the defendants. See Doc. 11-1 (2003
Memorandum Opinion and Order).
On November 2, 2004, Plaintiff filed another
lawsuit in the United States District Court for the

23a
Eastern District of Michigan against many of the
same defendants as before, as well as against the
individual attorneys who were involved in the
defense of the prior cases, James Meyerand and
Thomas Meyers.4
Just as before, Plaintiffs
lawsuit was based on the allegedly unlawful April
1998 search and seizure.
Doc. 11-2 (2004
Complaint). Plaintiff raised claims such as
"civil conspiracy to obstruct justice,"
"civil
conspiracy to thwart due process," and "civil
conspiracy to interfere and deprive first
amendment rights." Id. On June 30, 2006, the
district court entered judgment in favor of all
defendants and against Plaintiff, and dismissed
the case. See Doc. 11-3 (2006 Memorandum Order
and Opinion).
On November 19, 2013, Plaintiff filed
another lawsuit against, among others, the Village
of Armada, Macomb County, Ben Delecke, Lt. Lynn
Baumgarten, James Meyerand, and Thomas
arising out of the April 1998 search and seizure.

Joseph Raimondo, et al. v The Village of Armada, et al.
Case No. 01-CV-71353-DT (E.D. Mich. 2001).
3
Joseph Raimondo, et al. v The Village of Armada, et al.,
Case No. 02-CV-71696-DT (E.D. Mich. 2002).
4
Joseph Raimondo v. Thomas F. Myers, et al., Case No.
04-CV-74287-DT (E.D. Mich. 2004). Id. On February 6, 2014,
the district court entered an order and judgment dismissing
thecaseonthebasisofresjudicata.DOC. 11-5 (2014 Order of
Dismissal). The Sixth Circuit subsequently affirmed. Doc.
11-6(2015 Sixth Circuit Order).
2

Now, Plaintiff has filed yet another lawsuit

24a
based on the same events, against many of the
same defendants, and asserting the same or
similar claims.
The named defendants are
United States District Judges Denise Page Hood,
Lawrence Paul Zatkoff, George Caram Steeh, and
John Corbett O'Meara, the Democratic National
Committee, the Internal Revenue Service,
Commissioner John Koskinen, U.S. Tax Court
Judge
Carolyn P. Chiechi, Macomb County,
Michigan,
Lt.
Lynn
Baumgarten,
James
Meyerand, the Village of Armada, Michigan,
Ben Delecke, Thomas Meyers, and Capac State
Bank. While he does not direct any particular
count at any particular Defendant, Plaintiff raises
the following eleven claims:
• Count 1- Conspiracy via Obstruction of Justice
by Covering-up a Violated Search and Seizure
Warrant
• Count 2- Conspiracy via Denying 1st
Amendment Rights to Petition For Redress
• Count 3: Conspiracy via Denying 4th
Amendment Due Process.
• Count 4- Conspiracy via Denying 5th
Amendment Due Process Clause.
• Count 5- Conspiracy via Depriving 14th
Amendment Due Process.
• Count 6: Conspiracy via Denying Equal and
Fair Treatment of Law.
• Count 7- Conspiracy via Fraud upon the Court.
• Count 8: Conspiracy via engaging in Social
Justice Policies
• Count 9: Conspiracy via Taxation without
Federal Representation.

25a
• Count 10: Conspiracy via Intentional Infliction
of Emotional Distress.
• Count 11 : Conspiracy via Engaging in Hate
Crimes.
II.

Discussion

Defendants Village of Armada, Macomb
County, Ben Delecke, James Meyerand, Thomas
Meyers, and Lt. Lynn Baumgarten (the “Village
Defendants”) move to dismiss under Fed. R. Civ. P.
12(b)(6) for failure to state a claim upon which
Joseph Raimondo v. Village of Armada, et al., Case No.
13-CV-14773 (E.D. Mich. 2013).

5

relief can be granted. "To survive a motion to
dismiss, a complaint must contain sufficient
factual matter, accepted as true, to state a claim
to relief that is plausible on its face." Zink v.
Lombardi, 783 F ,3d I 089, I 098 (8th Cir. 2015) (
quoting Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009)). A claim has facial plausibility when its
allegations rise above the "speculative"
or
"conceivable," Bell Atlantic Corp. v. Twombly, 550
U.S. 544, 570 (2007)), and where "the plaintiff
pleads factual content that allows the court to draw
the reasonable inference that the defendant is
liable for the misconduct alleged." Iqbal, 556 U.S.
at 678.
Such a complaint will be liberally
construed in the light most favorable to the
plaintiff. Eckert v. Titan Tire Corp., 514 F .3d
801, 806 (8th Cir. 2008).
The Village Defendants argue that

26a
Plaintiffs claims are barred by the doctrine
of res judicata, which precludes parties from
relitigating a claim in a subsequent suit that
was or could have been raised in a previous
Allen v. McCurry, 449 U.S. 90, 94
lawsuit. 6
(1980). The effect of res judicata is determined by
"the law of the forum that rendered the first
judgment." Laase v. Cty. of Isanti, 638 F.3d
853, 856 (8th Cir. 2011). As the previous cases
that the Village Defendants rely on are from the
Eastern District of Michigan, this motion is
governed by the law of the Sixth Circuit.
There,
"the doctrine of res judicata bars subsequent
causes of action when a court of competent
jurisdiction
already has rendered
a final
decision on the merits
involving the
same
parties and claims in a prior action."
Consolidation Coal Co. v. Maynes, 739 F.3d 323,
327 (6th Cir. 2014). Additionally, res judicata
"applies
not only to bar the parties from
relitigating issues that were actually litigated but
also to bar them from relitigating issues that could
have been raised
Res judicata is properly raised in a Rule 12(b)(6)
motion to dismiss. See Daley v. Marriott Inti, Inc., 415
F.3d 889, 896 (8th Cir. 2005) (affirming district court's
order granting motion to dismiss based on res judicata).
6

in an earlier action." J.Z.G.
Res., Inc.
v.
Shelby Ins. Co., 84 F.3d 211, 214 (6th Cir. 1996)
(citing Commissioner v. Sunnen, 333 U.S. 591,
597 (1948)) (emphasis in original).
Plaintiff has filed at least four prior lawsuits

27a
against the Village of Armada, Ben Delecke,
Macomb County, and Lt. Lynn Baumgarten,
and at least two prior lawsuits against James
Meyerand and Thomas Meyers.
Each prior
lawsuit was based on the allegedly unlawful
April 1998 search, seizure,
and subsequent
foreclosure. The United States District Court for
the Eastern District of Michigan is a court of
competent jurisdiction, and already rendered a
final decision on the merits in each of the prior
suits.
See Docs.
11-1,
11-3,
11-5.
Plaintiffs suit in this Court is based on the
same April
1998
search,
seizure,
and
subsequent foreclosure as the prior suits, and
raises only claims that either were or could
have
been
raised
in the prior
suits.
Therefore, it is barred by the doctrine of res
judicata. See Allen v. McCurry, 449 U.S. 90, 94
(1980) ("[A] final judgment on the merits of an
action precludes the parties or their privies
from re litigating issues that were or could have
been raised in that action.").
Plaintiff argues
only that res judicata
should not apply because the prior judgments
were all based on fraud on the court, and
should be invalidated pursuant to Federal
Rule of Civil Procedure 60(b)(3). This argument is
unavailing.
Rule 60(b)(3) authorizes only a
motion for relief from a final judgment, not an
independent action. 11 Charles Alan Wright
& Arthur R. Miller, Federal Practice
&
Procedure: Civil § 2865 (3d ed. 2012) ("Relief
under Rule 60(b) ordinarily is obtained by motion

28a
in the court that rendered the judgment."). The
proper course for Plaintiff to seek relief from the
judgments under Rule 60(b )(3) was to file a motion
in the court that rendered the judgment.
III.

Conclusion

For
the
reasons
Village Defendants'
10, is granted.

set forth
above,
motion to dismiss,

the
Doc.

/^/Nanette K. Laughrev
NANETTE K. LAUGHREY
United States District Judge

Dated: June 25, 2018
Jefferson City, Missouri

29a
Appendix L
IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT of MISSOURI

JOSEPH RAIMONDO
Plaintiff
Case NO; 17-4254-CV-NKL.

v.

U. S. DISTICT CHIEF JUDGE,
DENISE PAGE HOOD et al„
Defendants

ORDER
Pending before the Court is Defendant
Capac State Bank's Motion to Dismiss, Doc.
13. For the following reasons, the motion is
granted.
I.

Background!

This lawsuit is based primarily on events
that occurred over twenty years ago in Armada,
Michigan. On April 6, 1998, law enforcement
officers from the Macomb County Sherriff s
Department, Clinton Township, and the Village of
Armada conducted a raid on Plaintiff Joseph
Raimondo's property to investigate allegations
that he was operating an illegal "chop shop."

30a
Although the officers obtained a warrant,
Plaintiff alleges that the officers violated the
warrant, and unlawfully seized private property.
Plaintiff also alleges that the officers prosecuted
Plaintiff for a purpose other than bringing an
offender to justice, and then retaliated against
him when he sought relief.

1
The facts are found in Plaintiffs Amended Complaint,
Doc. 6, as well as court documents from several related
proceedings.
The Court takes judicial notice of those
documents for purposes of the motion to dismiss. See Nixon
v. Couer D'Alene Tribe, 164 F.3d 1102, 1107 (8th Cir.
1999) ("[M] ate rials that are part of the public record or do not
contradict the complaint may be considered by a court in
deciding a Rulel2(b)(6) motion to dismiss.").

On April 6, 2001, Plaintiff filed a lawsuit in
the United States District Court for the Eastern
District of Michigan, seeking damages related to
the allegedly unlawful search and seizure.2 On
March 5, 2002, Plaintiff filed a second lawsuit
in the same court, which included the same
defendants as the first, but also added Defendant
Capac State Bank.3 Plaintiff alleged that his
business ventures failed as a result of the raid and
subsequent prosecution, and he was unable to
repay his loans to Defendant Capac State Bank.
Plaintiff claimed that Defendant Capac, therefore,
participated in the conspiracy to deprive him of
his property in violation of his civil rights. The
two cases were consolidated, and on September 30,
2003, the district court granted Defendant Capac's
motion to dismiss. See Doc. 14-1 (2003
Memorandum Opinion and Order)

31a
On November 2, 2004, Plaintiff filed another
lawsuit in the United States District Court for the
Eastern District of Michigan against the same
defendants as in his prior cases, including
Just as before, Plaintiffs
Defendant Capac.4
lawsuit was based on the allegedly unlawful April
1998 search and seizure. Doc.14-2 (2004
Complaint).
Plaintiff raised claims such as
"civil conspiracy to obstruct justice,"
"civil
conspiracy to thwart due process," and "civil
conspirac to interfere and deprive first amendment
rights." Id. On October 25, 2005, the district
court granted Defendant Capac's motion to dismiss
based on, among other things, the doctrine of res
judicata. See Doc. 14-3, p. 6 (2005 Order Accepting
Reports and Recommendations).
On November 19,
2013, Plaintiff filed
another lawsuit against,
among others,
Defendant Capac.
See Doc. 14-4 (2013
Complaint).5 Once again, Plaintiff
alleged constitutional violations arising out of the
April 1998 search and seizure. Id. On February
6, 2014, the district court entered
Joseph Raimondo, et al. v The Village of Armada,
Case No. 01-CV-71353-DT (E.D. Mich. 2001).
Joseph Raimondo, et al. v The Village of Armada,
3
et al., Case No. 02-CV-71696-DT (E.D. Mich. 2002)
4
Joseph Raimondo v. Thomas F. Myers, et al., Case
No. 04-CV-74287-DT (E.D. Mich. 2004).
Joseph Raimondo v. Village of Armada, et al., Case
5
No. 13-CV-14773 (E.D. Mich. 2013).
2

et al.,

an order and judgment dismissing the case on the

32a
basis of res judicata. Doc. 14-5 (2014) Order of
Dismissal).
The Sixth Circuit subsequently
affirmed. Doc. I 4‘6 (2015 Sixth Circuit Order).
Now, Plaintiff has filed yet another lawsuit
based on the same events, against many of the
same defendants, and asserting the same or
similar claims. The named defendants are United
States District Judges Denise Page Hood,
Lawrence Paul Zatkoff, George Caram Steeh, and
John Corbett O'Meara, the Democratic National
Committee, the Internal Revenue Service,
Commissioner John Koskinen, U.S Tax Court
Judge Carolyn P. Chiechi, Macomb County,
Michigan,
Lt. Lynn Baumgarten, James
Meyerand, the Village of Armada, Michigan,
Ben Delecke, Thomas Meyers, and Capac State
Bank. While he does not direct any particular
count at any particular Defendant, Plaintiff raises
the following eleven claims^
•
Count L
Conspiracy via Obstruction of
Justice by Covering-up a Violated Search and
Seizure Warrant
•
Count 2'Conspiracy
via Denying 1st
Amendment Rights to Petition For Redress
•
Count 3- Conspiracy via Denying 4th
Amendment Due Process.
•
Count 4- Conspiracy via Denying 5th
Amendment Due Process Clause.
•
Count 5:
Conspiracy
via Depriving 14th
Amendment Due Process.
• Count 6^ Conspiracy via Denying Equal and Fair
Treatment of Law.

33a
• Count 1’ Conspiracy via Fraud upon the Court.
• Count 8^ Conspiracy via engaging in Social
Justice Policies
• Count 9^ Conspiracy via Taxation without
Federal Representation.
• Count 10- Conspiracy via Intentional Infliction
of Emotional Distress.
• Count 11: Conspiracy via Engaging in Hate
Crimes.
II.

Discussion

Defendant Capac moves to dismiss under
Fed. R. Civ. P. 12(b)(6) for failure to state a
claim upon which relief can be granted. "To
survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as
true, to state a claim to relief that is plausible on
its face." Zink v. Lombardi, 783 F.3d 1089,
1098 (8th Cir. 2015) (quoting Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009)). A claim has facial
plausibility when its allegations rise above the
"speculative" or “conceivable,” Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 570 (2007)), and where
“the plaintiff pleads factual content that allows the
court to draw the reasonable inference that the
defendant is liable for the misconduct alleged."
Iqbal, 556 U.S. at 678.
Such a complaint will be
liberally construed in the light most favorable to
the plaintiff. Eckert v. Titan Tire Corp., 514 F
,3d 801, 806 (8th Cir. 2008),
Defendant Capac argues that Plaintiffs
claims are barred by the doctrine of res judicata,

34a
which precludes parties from relitigating a claim in
a subsequent suit that was or could have been
raised in a previous lawsuit.6 Allen v. McCurry,
449 U.S. 90, 94 (1980). The effect of res judicata is
determined by "the law of the forum that rendered
the first judgment." Laase v. Cty. oflsanti, 638
F.3d 853, 856 (8th Cir. 2011). As the previous
cases that Defendant Capac relies on are from the
Eastern District of Michigan, this motion is
governed by the law of the Sixth Circuit. There,
"the doctrine of res judicata bars subsequent
causes of action when a court of competent
jurisdiction
already has rendered
a final
decision on the merits
involving
the same
parties and claims in a prior action."
Consolidation Coal Co. v. Maynes, 739 F.3d 323,
327 (6th Cir. 2014). Additionally, res judicata
"applies
not only to bar the parties
from
relitigating issues that were actually litigated
but also to bar them from relitigating issues that
could have been raised in an earlier action."
J.Z.G. Res., Inc. v. Shelby Ins. Co., 84 F.3d
211, 214 (6th Cir. 1996) (citing Commissioner
v. Sunnen, 333 U.S. 591, 597 (1948)) ( emphasis in
original).
Plaintiff has filed at least three prior
lawsuits against Defendant Capac, each of which
was based on the April 1998 search, seizure,
and subsequent foreclosure.
The United States
District Court for the Eastern District of Michigan
is a court of competent jurisdiction, and already
rendered

35a
Res judicata is properly raised in a Rule 12(b)(6)
See Daley v. Marriott Int'l, Inc., 415
motion to dismiss.
F.3d 889, 896 (8th Cir. 2005) (affirming district court’s
order granting motion to dismiss based on res judicata).
6

a final decision on the merits in each of the prior
suits. See Docs. 14-1, 14-3, 14-5.
Plaintiffs
suit in this Court is based on the same April 1998
search, seizure, and subsequent foreclosure as
the prior suits, and raises only claims that either
were or could have been raised in the prior suits.
Therefore, it is barred by the doctrine of
resjudicata. See Allen, 449 U.S. at 94 ("[A] final
judgment on the merits of an action precludes the
parties or their privies from relitigating issues that
were or could have been raised in that action.").
Plaintiff argues only that res judicata
should not apply because the prior judgments
were all based on fraud on the court, and
should be invalidated pursuant to Federal
Rule of Civil Procedure 60(b)(3). This argument
is unavailing. Rule 60(b)(3) authorizes only a
motion for relief from a final judgment, not an
independent action.
11 Charles Alan Wright &
Arthur R. Miller, Federal Practice & Procedure:
Civil § 2865 (3d ed. 2012) ("Relief under Rule 60(b)
ordinarily is obtained by motion in the court that
rendered the judgment."). The proper course for
Plaintiff to seek relief from the judgments under
Rule 60(b)(3) was to file a motion in the
court that rendered the judgment.

36a
III.

Conclusion

For the reasons set forth above,
Defendant Capac's motion to dismiss, Doc. 13, is
granted.

/s/ Nanette K. Laughrey
NANETTE K. LAUGHREY
United States District Judge
Dated: June 25, 2018
Jefferson City, Missouri

37a
Appendix M
IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT of MISSOURI

JOSEPH RAIMONDO
Plaintiff
v.

Case NO; 17-4254-CV-NKL.

U. S. DISTICT CHIEF JUDGE,
DENISE PAGE HOOD et al„
Defendants

ORDER
Pending before the Court is Defendants
Internal Revenue Service and former IRS
Commissioner John Koskinen’s Motion to Dismiss,
Doc. 41. For the following reasons, the motion is
granted.
I

Background!

This lawsuit is based primarily on events
that occurred over twenty years ago in Armada,
Michigan. On April 6th 1998, Law enforcement
officers
from
Macomb
County
Sheriffs
Department, Clinton Township, and the Village of
Armada conducted a raid on Plaintiff Joseph

38a
Raimondo’s properties, to investigate allegations
that he was operating an illegal “chop shop.”
Although the officers obtained a warrant, Plaintiff
alleges that officers violated the warrant and
unlawfully sized private property. Plaintiff also
alleges that the officers prosecuted Plaintiff for a
purpose other than bringing an offender to justice,
and then retaliated against him when he sought
relief.

1
The facts are found in Plaintiffs Amended
Complaint, doc. 6, as well as court documents from
several related proceedings.
The Court takes
judicial notice of those document for the purpose of
the motion to dismiss. See Nixon v. Couer D’Alen
Tribe, 164 F.3d 1102, 1107 (8*h Cir. 1999)
C‘[M]aterials that are part of the public record or do
not contradict the company may be considered by a
court in deciding a Rule 12(b)(6)motion to
dismiss.’).
In the times since the April 6th 1998 raid,
Plaintiff has filed eight lawsuits in federal court
seeking damages related to the allegedly unlawful
search and seizure of his property.2 Plaintiffs
previous lawsuits asserted claims against many of
the same defendants as are named here, along with
a growing list of district judges and agencies that
have ruled against Plaintiff along the way. Plaintiff
alleges that all of the Defendants have conspired
together to violate Plaintiffs civil rights and deny
him his right to restitution.

39a
In this, this ninth lawsuit, the named
defendants are the United States District Judges,
Denise Page Hood, Lawrence Paul Zatkoff, George
Caram Steeh, and John Corbett O’Meara, the
Democrat Nation Committee, the Internal Revenue
Service, Commissioner John Koskien, U.S. Tax
Court Judge Carolyn P. Chiechi, Macomb County,
Michigan, Lt. Lynn Baumgarten, James Meyerand,
the Village of Armada, Michigan, Ben Delecke,
Thomas Meyers,, and Capac State Bank. While he
does not directly and particular count at any
particular Defendant, Plaintiff raise the following
eleven claims^
• Count V- Conspiracy via Obstruction of Justice
by Covering-up a Violated
Search and Seizure Warrant
• Count 2- Conspiracy via Denying 1st
Amendment Rights to Petition For
Redress
• Count 3: Conspiracy via Denying 4th
Amendment Due Process.
• Count 4- Conspiracy via Denying 5th
Amendment Due Process Clause.
• Count 5- Conspiracy via Depriving 14th
Amendment Due Process.
• Count 6^ Conspiracy via Denying Equal and
Fair Treatment of Law.
• Count 7: Conspiracy via Fraud upon the
Court.
2
Raimondo v. Vill. Of Armada,
2U3-cvl4773 (E.D. Mich. 2013); Raimondo v.

No.

40a
Hood, No. 2:10-cv-15107 (E.D. Mich. 2010);
Raimondo v. Hood, No. 5;06-cv 15007 (E.D.
Mich. 2006); Raimondo v. Myers, No. 2:04-cv-74287
(E.D. Mich. 2004); Raimondo v. State ofMich., No.
2^03'cv72991 (E.D. Mich. 2003); Raimondo v.
Fritz Builder, Inc., No. 2:03-cv-71972 (E.D. Mich.
2003); Raimondo v.
Vill. Of Armada, No.
2^02-cv71696 (E.D. Mich. 2002); Raimondo v.Vill.
of Armada, No. 2:01-cv71353 (E.D. Mich. 2001).
Plaintiff has also filed several unsuccessful appeals
before the Sixth Circuit.
• Count 8^ Conspiracy via engaging in Social
Justice Policies
• Count 9: Conspiracy via Taxation without
Federal Representation.
• Count 10: Conspiracy via Intentional Infliction
of Emotional Distress.
• Count 11: Conspiracy via Engaging in Hate
Crimes.
II.

Discussion

Defendants IRS and John Koskinen (the
"IRS Defendants") move to dismiss under Fed. R.
Civ. P. 12(b)(1) for lack of subject matter
jurisdiction, and Fed. R. Civ. P. 12(b)(6) for
failure to state a claim upon which relief can be
granted.
"To survive a motion to dismiss, a
complaint must contain sufficient factual matter,
accepted as true, to state a claim to relief that is
plausible on its face." Zink v. Lombardi, 783
F.3d 1089, 1098 (8th Cir. 2015)

41a
(quotingAshcroftv. Iqbal, 556 U.S. 662, 678 (2009)).
A claim has facial plausibility when its allegations
rise above the "speculative" or "conceivable," Bell
Atlantic Corp. v. Twombly, 550 U.S. 544, 570
(2007)), and where "the plaintiff pleads factual
content that
allows the court to draw the
reasonable inference that the defendant is liable
for the misconduct alleged." Iqbal, 556 U.S. at
678. Although the Complaint must be liberally
construed
in a light most favorable to the
plaintiff, Eckert v. Titan Tire Corp., 514 F .3d
801, 806 (8th Cir. 2008), plaintiff cannot simply
rely on vague or conclusory allegations to support
his claims. Courts are not required "to accept as
true a legal conclusion couched as a factual
allegation," and such "labels and conclusions or
formulaic recitations of the elements of a cause of
action will not do." Iqbal, 556 U.S. at 678 (quoting
Twombly, 550 U.S. at 544).
A. The IRS and Former Commissioner John
Koskinen are Improper Defendants
Raimondo names the IRS and former IRS
.Commissioner
John Koskinen
as party
defendants. It is well settled, however, "that the
IRS cannot be sued, and that the proper party in
actions involving federal taxes is the United States
of America." In re Levoy, 182 B.R. 827, 832
(9th Cir. B.A.P.
1995) (citing Blackmar v.
Guerre, 342 U.S. 512, 514 (1952)); see also Jones
v. I.R.S., 216 F. Supp. 2d 955, 958 (D. Neb. 2002)
("A suit against the IRS is one against the United

42a
States."). Additionally, "[w]hen an action is one
against named individual defendants, but the acts
complained of consist of actions taken by
defendants in their official capacity as agents of
the United States, the action is in fact one
against the United States." Atkinson v. 0 'Neil,
867 F.2d 589, 590 (10th Cir. 1989) (citing Burgos
v. Milton, 709 F.2d 1, 2 (1st Cir. 1983)).
In his entire 124 page Complaint,
Raimondo's only specific allegation against
Koskinen is that "Defendant [the Honorable
Carolyn P.] Chiechi, on behalf of the Internal
Revenue Service and Commissioner Koskinen,
threatened
[Raimondo] with a twenty five
thousand dollar fine prior to March 3, 2015 by a
mailed court notice of order to suppress
[Raimondo's] defense and squash the Taxation
With-out [sic] Federal Representation charge."
Doc. 6, p. 111. Therefore, as the sole allegation
against Koskinen relates to actions taken
in his official capacity,
Raimondo's suit
against Koskinen is in fact one against the United
States.
Accordingly,
although
Raimondo
improperly brought this action against the
IRS
and former
IRS Commissioner
John
Koskinen, the Court will construe it as one
properly brought against the United States.
B.
Raimondo's Claims against the IRS
Defendants are barred by the Doctrine of Sovereign
Immunity

43a
"Absent a waiver, sovereign
immunity
shields the Federal Government and its agencies
from suit." FD!Cv. Meyer, 510 U.S. 471, 475
(1994). A waiver of sovereign immunity is strictly
in favor of the United States,
construed
suit bears the
and the party bringing
of demonstrating waiver. Snider v.
burden
United States, 468 F.3d 500, 509 (8th Cir. 2006);
VS Ltd. P'ship v. HUD, 235 F.3d 1109, 1112
(8th Cir. 2000); Murray v. Murray, 558 F.2d 1340,
1341 (8th Cir. 1977). If the party bringing suit
fails to do so, then the claim must be dismissed.
United States v. Mitchell, 445 U.S. 535, 538
(1980).
Raimondo's specific claims against the IRS
Defendants are difficult to fully comprehend.
However, to the extent Raimondo asserts any tort
claims, for which the Federal Tort Claims Act, 26
U.S.C. §§ 2671-80, potentially serves as a waiver
of sovereign immunity, those claims are barred
by the FTCA's tax exception.
Raimondo asserts that the IRS Defendants
conspired to use "Party of Spirited Politics for
Taxing With-out [sic] Federal Representation,"
that "Defendants of the IRS employees [sic] then
started harassing [him] throughout the first half
of, [sic] 2016," and that "Defendants of the IRS
sent in both Dec. of 2014, and again in Dec. 2015,
threatening letters of intend [sic] to do us further
harm, which put [him] and [his] family under an

44a
ever darker cloud of despair .... " Doc. 6, pp. Ill,
114. While the FTCA waives the United States'
sovereign immunity for claims "arising out of
negligent or wrongful acts or omissions of its
employees, when such employees are acting
within the scope of their duties," Ingram v.
Faruque, 728 F.3d 1239, 1245 (10th Cir. 2013)
(citing 28 U.S.C. §
1346(b)(1)), the FTCA
does not apply to "[a]ny claim arising in
respect of the assessment or collection of any tax."
28 U.S.C. § 2680(c); see also Minuti v. IRS,
502 F. App'x 161, 163 n.l (3d Cir. 2012) (the
FTCA "specifically states that the government
has not waived its sovereign immunity for claims
arising out of the assessment and collection of
taxes"). Raimondo's claims all arise exclusively in
the context of the IRS Defendants' assessment or
collection of taxes, and therefore the FTCA does not
apply to them. Accordingly, the claims remain
barred sovereign immunity.
See Jones v.
United States, 16 F .3d 979 (8th Cir. 1994)
(affirming dismissal of tort claims against the
IRS and its employees).
To the extent Raimondo seeks a refund of
taxes he has already paid, for which 28 U.S.C. §
1346(a) may constitute a waiver of the United
States' sovereign immunity, the claims are barred
because Raimondo
has failed to satisfy the
statutory prerequisites for maintaining such a
refund suit.
Raimondo seeks the "return of federal
taxation paid ... for the tax year [sic] 2011, [ and]

45a
all fines, and all penalties assessed by Tax Judge,
[sic] Carolyn P. Chiechi on behalf of the United
States Federal Government."
Doc. 6, p. 1 I.
Although Section
1346(a) permits civil suits
against the United States for the recovery of
taxes
"erroneously or illegally assessed or
collected," the statute "must be read in conformity
with other statutory provisions which qualify a
taxpayer's right to bring a refund suit upon
compliance with certain conditions."
United
States v. Dalm, 494 U.S. 596, 601 (1990). Most
importantly, pursuant to 26 U.S.C. § 7422(a),
before bringing a suit in federal court for the
recovery of taxes, a taxpayer must first pay the
full tax liability, and then timely file an
administrative refund claim with the IRS.
See
Pagonis v.
United States,
575
F.3d809,
812-13 (8th Cir. 2009) ("[T]he Supreme Court's
ruling in Flora [is] that full payment of an
assessment is a prerequisite to a refund action")
(citing Flora v. United States, 362 U.S. 145, 177
(i960)); Chernin v. United States, 149 F.3d 805,
813 (8th Cir. 1998) ("[I]t is plain that the filing of
a timely refund claim with the IRS in accord with
section 7422(a) is a prerequisite to maintaining a
tax refund suit.").
Here, Raimondo has not
pleaded that he paid his full federal income tax for
tax year 2011"or any other year-and has not
pleaded that he ever filed an administrative claim
with the IRS for a refund pursuant to Section
Accordingly,
sovereign immunity
7422(a).
bars Raimondo's suit.

46a
C. Raimondo's Claims are barred by the
Declaratory Judgment Act and the Tax
Anti-Injunction Act
Raimondo also seeks "Civil Injunction
Relief... for Tax forgiveness for the year 2008 to the
current year of 2017 due to the nature of the
wrongs carried out by Federal Employees." Doc.
6, p. 11.
However,
subject to limited
exceptions, none of which are applicable in this
case, the Tax Anti-Injunction Act provides that
"no suit for the purpose
of restraining the
assessment or collection of any tax shall be
maintained in any court by any person, whether
or not such person is the person against whom such
tax was assessed."
26 U.S.C. §
7421(a).
Therefore, to the extent that Raimondo seeks to
enjoin the collection of any outstanding federal tax
liabilities, such a suit is clearly barred under the
Tax Anti-Injunction Act. See Jericho Painting &
Special Coating, Inc. v. Richardson, 838 F. Supp.
626, 629 (D.D.C. 1993) (noting that the Tax
Anti-Injunction Act "extends not only to the
assessment or collection of taxes, but also to the
entire process involved in enforcing the revenue
laws"). 3
D. Failure to State a Claim upon Which
Relief Can Be Granted
To the extent Raimondo may seek to raise
a claim for wrongful collection pursuant to 26
U.S.C. § 7433, the Amended Complaint fails to

47a
state a claim upon which relief may be granted.
Section 7433(a) provides that:
If, in connection with any collection
of Federal tax with respect to a
taxpayer, any officer or employee of the
Internal Revenue Service recklessly or
intentionally, or by reason of negligence,
disregards any provision of this title, or any
regulation promulgated under this title,
such taxpayer may bring a civil action for
damages against the United States in a
district court of the United States. Except
as provided in section 7432, such civil
action shall be the exclusive remedy for
recovering damages resulting from such
actions.
26 U.S.C. § 7433. "[B]ecause § 7433 refers only
to noncompliance with statutes and regulations,
claims of other wrongdoing do not implicate
jurisdiction under § 7433."
Gass v. U.S.
Dep't of Treasury, 216 F.3d 1087 (10th Cir. 2000).
Raimondo fails to identify any statute or
regulation that he believes was violated, and has
not alleged any specific wrongdoing or misconduct
on the part of the IRS, specific IRS employees, or
former IRS Commissioner John Koskinen that he
believes violated a given statute or regulation.

To the extent Raimondo may seek some form of
a declaratory judgment with respect to his federal taxes,
such relief is barred under the tax exception to the
3

48a
Declaratory Judgment Act, 28 U.S.C. § 2201. The
Declaratory Judgment Act, like the Tax Anti-Injunction
Act, "forbids suits for the purpose of restraining the
assessment or collection of any tax." Porter v. Fox, 99
F.3d 271, 274 (8th Cir. 1996) (citing Bob Jones Univ.
v. Simon, 416 U.S. 725, 732 n. 7 (1974))
Moreover, Section 7433( d)(l) provides that "a
judgment for damages shall not be awarded
under [this
section]
unless
the
court
determines that the plaintiff has exhausted
the administrative remedies available to such
plaintiff within the Internal Revenue Service." 26
U.S.C. § 7433(d)(1). Here, Raimondo fails to allege
that he exhausted his administrative remedies
prior to bringing this suit, and therefore fails to
state a claim for which relief can be granted. See
Gray v. United States, 723 F.3d 795, 798-99 (7th
Cir. 2013) (holding that the exhaustion
requirement under 26 U.S.C.§7433(d) is a
prerequisite to filing a refund suit in district court);
Hoogerheide v. IRS, 637 F.3d 634, 636, 639 (6th
Cir.
2011)
(holding that the exhaustion
requirement in 26 U.S.C. § 7433(d) is a
mandatory, non-waiverable requirement that
must be satisfied prior to bringing suit in
district court); see also McGarvin v. United
States, No. 4:92CV001816 JCH,
1993 WL
208814, at *1 (E.D. Mo. Mar. 9, 1993) (dismissing
plaintiffs claims under 26 U.S.C. § 7433 because
plaintiffs complaint lacked any evidence that the
plaintiff sought administrative relief prior to filing
suit).
III.

Conclusion

49a
For
the reasons
set forth
above,
and
former
IRS
Defendants
IRS
Commissioner John Koskinen's motion to dismiss,
Doc. 41, is granted.

/s/ Nanette K. Laughrev
NANETTE K. LAUGHREY
United States District Judge

Dated: August 7, 2018
Jefferson City, Missouri

50a
Appendix N
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MISSOURI
CENTRAL DIVISION
JOSEPH RAIMONDO,
Plaintiff,
v.

Case No. 17-04254-CV-C-NKL

U.S. DISTRICT CHIEF
JUDGE DENISE
PAIGE HOOD, et al„
Defendants,
ORDER
Pending before the Court is Plaintiffs
Request for Reconsideration, Doc. 67.
Mr.
Raimondo seeks reconsideration of the Court's
Orders dismissing claims against the Defendants
Village of Armada, Macomb County, Ben Delecke,
James Meyerand, Thomas Meyers, and Lt.
Lynn Baumgarten's, Doc. 57, the Capac State
Bank, Doc. 58, and the Democratic National
Committee, Doc. 59. For the following reasons,
Plaintiffs Request for Reconsideration is denied.
I.

Background 1
This lawsuit is based primarily on events
that occurred over twenty years ago in Armada,
Michigan. On April 6, 1998, law enforcement

51a
officers from the Macomb County Sherriffs
Department, Clinton Township, and the Village of
Armada conducted a raid on Plaintiff Joseph
Raimondo's property to investigate allegations
that he was operating an illegal "chop
shop." Although the officers obtained a warrant,
Plaintiff alleges that the officers violated the
warrant,
The facts are found in Plaintiffs Amended
Complaint, Doc. 6.as well as court documents
from several related proceedings. The Court takes
judicial notice of those documents for purposes of
the motion to dismiss. See Nixon v.
Couer
D'Alene Tribe, 164 F.3d 1102, 1107 (8th Cir.
1999) ("[Mlaterials that are part of the public
record or do not contradict the complaint may be
considered by a court in deciding a Rulel2(b )(6)
motion to dismiss.").
l

and unlawfully seized private property. Plaintiff
also alleges that the officers prosecuted Plaintiff for
a purpose other than bringing an offender to
justice, and then retaliated against him when he
sought relief.
On April 6, 2001, Plaintiff filed a lawsuit in
the United States District Court for the Eastern
District of Michigan, seeking damages related to
the allegedly unlawful search and seizure.2 The
Village of Armada, Macomb County, Ben Delecke,
and Lt. Lynn Baumgarten were each named as
defendants in the lawsuit. On March 5, 2002,
Plaintiff filed a second lawsuit in the same district,

52a
against, among others, the Village of Armada,
Macomb
County,
Ben Delecke,
and
Lt.
Lynn Baumgarten.3 The two cases were
consolidated, and on September 30, 2003, the
district court granted summary judgment in
favor of the defendants. See Doc. 11-1 (2003
Memorandum Opinion and Order).
On November 2, 2004, Plaintiff filed another
lawsuit in the United States District Court for the
Eastern District of Michigan against many of the
same defendants as before, as well as against the
individual attorneys who were involved in the
defense of the prior cases, James Meyerand and
Thomas Meyers.4
Just as before, Plaintiffs
lawsuit was based on the allegedly unlawful April
1998 search and seizure.
Doc. 11-2 (2004
Complaint).
Plaintiff raised claims such
as "civil conspiracy to obstruct justice," "civil
conspiracy to thwart due process," and "civil
conspiracy to interfere and deprive first
amendment rights."
Id.
On June 30, 2006,
the district court entered judgment in favor of all
defendants and against Plaintiff, and dismissed
the case. See Doc. 11-3 (2006 Memorandum
Order and Opinion).
Joseph Raimondo, et al. v The Village
ofArmada, et al., Case No. 01CV-71353-DT (E.D. Mich. 2001).
3
Joseph Raimondo, et al. v The Village
ofArmada, et al., Case No. 02CV-71696-DT (E.D. Mich. 2002).
4
Joseph Raimondo v. Thomas F. Myers, et
2

53a
al., Case No. 04-CV- 74287-DT (E.D. Mich. 2004).
On November 19, 2013, Plaintiff filed
another lawsuit against, among others, the Village
of Armada, Macomb County, Ben Delecke, Lt. Lynn
Baumgarten, James Meyerand, and Thomas
See Doc. 11-4 (2013 Complaint).5
Meyers.
Once again, Plaintiff alleged constitutional
violations arising out of the April 1998 search
and seizure.
Id.
On February 6, 2014, the
district court entered an order and judgment
dismissing the case on the basis of res judicata.
Doc. 11-5 (2014 Order of Dismissal).
The
Sixth Circuit subsequently affirmed.
Doc.
11-6 (2015 Sixth Circuit Order).
Now, Plaintiff has filed this lawsuit based
on the same events, against many of the same
defendants, and asserting the same or similar
claims.
The named defendants are United
States District Judges Denise Page Hood,
Lawrence Paul Zatkoff, George Caram Steeh, and
John Corbett OMeara, the Democratic National
Committee, the Internal Revenue Service,
Commissioner John Koskinen, U.S. Tax Court
Judge Carolyn P. Chiechi, Macomb County,
Michigan, Lt. Lynn Baumgarten,
James
Meyerand, the Village of Armada, Michigan, Ben
Delecke, Thomas Meyers, and Capac State Bank.
While he does not direct any particular count at
any particular Defendant, Plaintiff raises the
following eleven claims:
Count V

Conspiracy via Obstruction of

54a
Justice by Covering-up a Violated Search and
Seizure Warrant
•
Count 2' Conspiracy via Denying 1st
Amendment Rights to Petition For Redress
•
Count 3: Conspiracy via Denying 4th
Amendment Due Process.
•
Count 4- Conspiracy via Denying 5th
Amendment Due Process Clause.
•
Count 5: Conspiracy via Depriving 14th
Amendment Due Process.
•
Count 6^ Conspiracy via Denying Equal and
Fair Treatment of Law.
•
Count 7- Conspiracy via Fraud upon the Court.
Count 8^ Conspiracy via engaging in Social Justice
Policies
•
Count 9: Conspiracy via Taxation without
Federal Representation.
•
Count 10^ Conspiracy via Intentional
Infliction of Emotional Distress.
•
Count 11: Conspiracy via Engaging in Hate
Crimes.
Joseph Raimondo v. Village ofArmada,
al., Case No. 13-CV-14773 (E.D. Mich. 2013).

5

et

After careful consideration, this Court
granted the Motions to Dismiss which were filed by
the Defendants Village of Armada, Macomb
County, Ben Delecke, James Meyerand, Thomas
Meyers, and Lt. Lynn Baumgarten's, Doc. 57, the
Capac State Bank, Doc. 58, and the Democratic
National Committee, Doc. 59. Mr. Raimondo now
asks the Court to reconsider those rulings.

55a
II.

Discussion

A district court has broad discretion to
determine whether to grant motions to reconsider.
In re Levaquin Products Liab. Litig., 739 F.3d 401,
404 (8th Cir. 2014); Innovative Home Health Care,
Inc. v. P. T. -0. T. Assocs. of the Black Hills, 141
F.3d 1284, 1286 (8th Cir. 1998). However, a
motion to reconsider generally "serve [ s] a limited
function^ to correct manifest errors of law or fact or
to present newly discovered evidence." Arnold v.
Sec. Servs., Inc., 627 F.3d 716, 721 (8th Cir.
2010). A motion to reconsider "cannot be used
to raise arguments which could have been raised
prior to the issuance of judgment." Hagerman v.
Yukon energy Corp., 839 F.2d 407, 414 (8th Cir.
1988).
First, while Mr. Raimondo asks the Court to
reconsider its order dismissing his Complaint
against the Democratic National Committee,
Doc. 59, he does not explain any basis
for
reconsidering that ruling. Further, the Court has
reviewed that Order of dismissal and is confident
there is no basis for reconsidering its ruling.
Second, as for the Court's orders dismissing
the claims against the Capac State Bank, Doc. 58,
and the claims against the Defendants Village
of Armada, Macomb County, Ben Delecke,
James Meyerand, Thomas Meyers, and Lt. Lynn
Baumgarten's, Doc. 57, Mr. Raimondo argues
that res judicata does not apply because there was
an ongoing constitutional violation and because

56a
fraud was committed against the courts which have
previously ruled against him. But both of these
arguments were either explicitly argued in
opposition to the Defendants' Motions to Dismiss
or could have been made before the Court granted
the Motions to Dismiss, Docs. 57 and 58. As
stated above, a motion for reconsideration is not
a vehicle to reargue a point previously made or to
argue a new point that could have been made prior
to the Court's ruling. For these reasons alone,
Mr. Raimondo's Request for Reconsideration is
denied.
Further, Mr. Raimondo's arguments fail on
the merits. In support of his claim that there is an
ongoing constitutional violation that precludes res
judicata, he has failed to allege an ongoing
violation. Instead he argues that his injuries from
a prior constitutional violation are ongoing and
therefore res judicata does not apply. In contrast,
Lawlor v. National Screen Services Corp., 349
U.S. 322 (1955), on which Mr. Raimondo relies,
involved new but similar constitutional violations
that allegedly occurred after an earlier court
judgment,
Because Mr. Raimondo has only
alleged ongoing injury from
an alleged
constitutional violation that occurred two decades
ago, res judicata bars Mr. Raimondo's claims
addressed in this Court's Orders of Dismissal,
Docs. 57 and 58.
Mr. Raimondo also argues that the Court
erred when it held that his Rule 60 Motion was not
the proper vehicle to remedy a fraud committed

57a
Again, his
against another federal court,
arguments were either made in opposition to the
Defendants' Motions to Dismiss, or could have
been made before the Court's Orders were entered.
For this reason alone, his request is denied.
Further, on the merits, Rule 60(b )(3)
authorizes only a motion for relief from a final
judgment, not an independent action.
11
Charles Alan Wright & Arthur R. Miller, Federal
Practice & Procedure: Civil§ 2865 (3d ed. 2012)
("Relief under Rule 60(b) ordinarily is obtained by
motion in the court that rendered the judgment.").
Mr. Raimondo has not cited any authority that
one federal district court can vacate an order of
another federal district court because
of an
alleged fraud perpetrated on the sister court.
Mr. Raimondo's request for reconsideration on this
issue is without merit.
Mr. Raimondo makes several other
statements in his Motion for Reconsideration that
are unrelated to the Court's Orders of Dismissal,
Docs. 57, 58, and 59, which are the Orders he
seeks to be reconsidered. To the extent he is
seeking relief related to another issue, that
relief is denied because it has not been sufficiently
identified and no persuasive legal authority has
been provided to support it.
III.

Conclusion

For the reasons set forth above, the
Plaintiffs Motion for Reconsideration, Doc. 67,

58a
is denied.
/fe/Nanette K. Laughrey
NANETTE K. LAUGHREY
United States District Judge
Dated: August 16, 2018
Jefferson City, Missouri

59a
Appendix 0
IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT of MISSOURI

JOSEPH RAIMONDO
Plaintiff
v.

Case NO; 17-4254-CV-NKL.

U. S. DISTICT CHIEF JUDGE,
DENISE PAGE HOOD et al„
Defendants

ORDER
Pending before the Court is Plaintiff
Joseph Raimondo's request for default judgment
against the Defendants, Doc. 47, and a statement
of the Federal Judge Defendants regarding Mr.
Raimondo's request for default judgment, Doc. 51.
For the following reasons, Plaintiffs request is
denied, and the claims against the Federal Judge
Defendants are all dismissed with prejudice.

I.

BACKGROUND!

This lawsuit is based primarily on events
that occurred over twenty years ago in Armada,
Michigan. On April 6, 1998, law enforcement
officers from the Macomb County Sherriff s

60a
Department Clinton Township, and the Village of
Armada conducted a raid on Plaintiff Joseph
Raimondo's property, to investigate allegations
that he was operating an illegal "chop shop."
Although the officers obtained a warrant, Plaintiff
alleges that the officers violated the warrant and
unlawfully seized private property. Plaintiff also
alleges that the officers prosecuted Plaintiff for

1
The facts are found in Plaintiffs Amended Complaint,
Doc. 6, as well as court documents from several related
proceedings.
The Court takes judicial notice of those
documents for purposes of this motion. See Nixon v. Couer
D'Alene Tribe, 164 F.3d 1102, 1107 (8th Cir. 1999)
("[Mlaterials that are part of the public record or do not
contradict the complaint may be considered by a court in
deciding a Rule 12(b)(6) motion to dismiss.").

. a purpose other than bringing an offender to
justice, and then retaliated against him when he
sought relief.
In the time since the April 1998 raid,
Plaintiff has filed eight lawsuits in federal court
seeking damages related to the allegedly unlawful
search and seizure of his property. 2
Plaintiffs
previous lawsuits asserted claims against many
of the same defendants as are named here, along
with a growing list of district court judges and
agencies that have ruled against Plaintiff along the
way. Plaintiff alleges that all of the Defendants
have conspired together to cover up the allegedly
unlawful search and seizure, and have engaged in
a continuing conspiracy to violate Plaintiffs civil
rights and deny him his right to restitution.

61a
In this, Plaintiffs ninth lawsuit, the named
defendants are United States District Judges
Denise Page Hood, Lawrence Paul Zatkoff, George
Caram Steeh, and John Corbett O'Meara, the
Democratic National Committee, the Internal
Revenue
Service,
Commissioner
John
Koskinen, U.S. Tax Court Judge Carolyn P.
Chiechi,
Macomb
County,
Michigan,
Lt.
Lynn Baumgarten, James Meyerand, the Village of
Armada,
Michigan,
Ben Delecke,
Thomas
Meyers, and Capac State Bank. While he does
not direct any particular count at any particular
Defendant, Plaintiff raises the following eleven
claims;
• Count L Conspiracy via Obstruction of Justice
by Covering-up a Violated Search and
Seizure Warrant
• Count 2- Conspiracy via Denying 1st
Amendment Rights to Petition For Redress
• Count 3: Conspiracy via Denying 4th Amendment
Due Process.
• Count 4- Conspiracy via Denying 5th Amendment
Due Process Clause.
• Count 5- Conspiracy via Depriving 14th
Amendment Due Process.
• Count 6: Conspiracy via Denying Equal and Fair
Treatment of Law.
2
Raimondo v. Vill. Of Armada, No. 243-cv-14773 (E.D.
Mich. 2013); Raimondo v. Hood, No. 240- cvl5107 (E.D.
Mich. 2010); Raimondo v. Hood, No. 5:06-cv-15007
(E.D. Mich. 2006); Raimondo v. Myers, No. 2:04-cv74287 (E.D. Mich. 2004); Raimondo v. State ofMich., No.
2:03-cv- 72991 (E.D. Mich.
2003); Raimondo v. Fritz Builder, Inc., No. 2:03-cv- 71972

62a
(E.D. Mich. 2003); Raimondo v.
Vil/. ofArmada, No.
2;02-cv71696 (E.D. Mich. 2002); Raimondo v.
Vil/.
ofArmada, No. 2;0hcv-71353 (E.D. Mich. 2001). Plaintiff has
also filed several unsuccessful appeals before the Sixth
Circuit.

• Count !'■ Conspiracy via Fraud upon the Court.
• Count 8^ Conspiracy via engaging in Social
Justice Policies
• Count 9: Conspiracy via Taxation without
Federal Representation.
• Count 10: Conspiracy via Intentional Infliction
of Emotional Distress.
• Count 11 • Conspiracy via Engaging in Hate
Crimes.
II.

DISCUSSION

On June 11, 2018, Plaintiff filed a "Motion for
Leave to File Motion Under FRCP 55(b)(2) for
Default [Jludgment and Award the Complaint
Relief Collectiv[e]ly & Selectively against
all
Named Defendants Supported by F.R.C.P Rule
60(b)(3) Relying on Fraud Upon the Court
Authorities." Doc. 4 7.
Although ostensibly
titled a "motion for leave to file motion," Plaintiff
specifically requests that the
Court
enter
default judgment
against
Defendants the
Honorable Denise Page Hood, the Honorable
George Carem Steeh,
the Honorable John
Corbett O'Meara, and the Honorable Carolyn P.
Chiechi (the "Federal Judge Defendants") for their
failure to defend. Accordingly, the Court will treat
Plaintiffs motion as one for default judgment,
rather than one that seeks only leave to file a
separate motion for default judgment.

63a
On June 18, 2018, the Federal Judge
filed
Defendants
a statement
regarding
Plaintiffs motion, in which they argue that a
default judgment is inappropriate because they
have not been properly served. The Federal Judge
Defendants also argue that rather than permit
Plaintiff to cure the insufficient service, the Court
should dismiss all claims against them because
they are futile. Doc. 51.
The Court afforded
Plaintiff an opportunity to respond to the Federal
Judge
Defendants'
arguments,
and
he
subsequently filed two briefs opposing the
dismissal of his claims.3 Therefore, the issue is
ripe for the Court to rule on.
A.

Motion for Default Judgment

Regardless
of whether
the
Federal
Judge Defendants were properly served, a
default
3
Plaintiff filed a sur-reply brief, despite lacking
permission to do so from the Court.
Judgment
is
not
warranted
under
the
circumstances of this case. Generally disfavored,
entry of default judgment is appropriate when
a party exhibits "willful violations of court
rules
[or] contumacious conduct, or [causes]
intentional delays." Ackra Direct Marketing Corp.
v. Fingerhut Corp., 86 F.3d 852, 857 (8th Cir.
1996) (internal quotation and citation omitted);
see also Jones Truck Lines, Inc. v. Fosters

64a
Truck & Equip. Sales, Inc., 63 F ,3d 685,
688 (8th
Cir. 1995)
("The entry of default
judgment is not favored and should be a rare
judicial
act.").
The Eighth Circuit has not
articulated specific factors to consider in ruling
on motions for default judgment, Ackra Direct
Marketing Corp., 86 F.3d at 857, and therefore
the decision is left to the "sound discretion" of the
Court. F.T.C. v. Packers Brand Meats, Inc.,
562 F.2d 9, 10 (8th Cir. 1977).
Within one week of Plaintiffs motion for
default judgment, the Federal Judge Defendants
filed a statement to explain why they have not
responded. Regardless of whether they are correct
in their belief that Plaintiff has failed to properly
serve them, the Federal Judge Defendants have
sufficiently demonstrated that they were not
willfully violating court rules or causing intentional
delays.
Moreover, by promptly responding to
Plaintiffs motion for default judgment, the Federal
Judge Defendants
have
shown an obvious
intent to participate and defend themselves in
this litigation. Accordingly, entry of a default
judgment
is not warranted,
and Plaintiffs
Motion for Leave to File Motion Under FRCP
55(b)(2) for Default [Jjudgment, Doc. 47, is denied.
B. The Claims against the Federal Judge
Defendants
Under federal law, a 'judge is absolutely
immune from liability if (l) the judge had subject
matter jurisdiction, and (2) the acts complained of

65a
were judicial acts." Smith v. Bacon 699 F.2d 434,
436 (8th Cir. 1983); see also Mireles v. Waco, 502
U.S. 9, 9, 11-12 (1991) ("[Glenerally, a judge
is immune from a suit for money damages....
[T]he immunity is overcome in only two sets of
circumstances.
First, a judge is not immune
from liability for nonjudicial actions, i.e., actions
not taken in the judge's judicial capacity. Second,
a judge is not immune for actions, though judicial
in nature, taken in the complete absence of all
jurisdiction.") (citations omitted). Absolute judicial
immunity extends to both suits for monetary
damages and injunctive relief. T. Y.B.E. Learning
Ctr. v. BindbeuteJ, No. 4:09-CV-1463-CEJ, 2011
WL 1676065, at *4 (E.D. Mo. May 2, 2011)
(explaining that "judicial immunity bars plaintiffs'
claims for damages and for injunctive relief); see
also Taylor v. Smithart, No. 2:10-CV-1057'ID, 2011
WL 1188553, at *1 (M.D. Ala. Jan. 25, 2011)
(dismissing claims for declaratory relief against
judge); Dancer v. Halton, 4:10-CV4118, at *4,
2010 WL 5071239 (W.D. Ark. Nov. 16, 2010)
(dismissing claims for injunctive and declaratory
relief against judge).
While each of the Federal Judge Defendants
presides over a court of limited jurisdiction, it is
beyond dispute that they had subject matter
jurisdiction to take the actions that Plaintiff now
contests. Judge Hood, Judge Steeh, and Judge
O'Meara are Article III federal judges empowered
to hear cases in the United States District Court for
the Eastern District of Michigan, and Judge
Chiechi is duly appointed as a judge empowered

66a
to hear cases brought before the United States
Tax Court.
Plaintiff appeared before each of
them because he alone initiated litigation in
their respective courts, and when the Federal
Judge Defendants
found that they lacked
jurisdiction to hear his claims, they promptly
dismissed the actions. See, e.g., Raimondo v.
US. Dist. Court, No.06-15007, 2007 WL 295234,
at *2 (E.D. Mich. Jan. 29, 2007) (dismissing
Plaintiffs complaint sua sponte because the court
found "no basis for subject matter jurisdiction").
There also can be no real question that
the actions of which Plaintiff complains were
judicial in nature. "[T]he factors determining
whether an act by a judge is a 'judicial' one
relate to the nature of the act itself, i.e., whether
it is a function normally performed by a judge,
and to the expectations of the parties, i.e.,
whether they dealt with the judge in his judicial
capacity." Stump v. Sparkman, 435 U.S. 349, 362
(1978).
Plaintiffs complaints concern only the
judges' performance
of functions normally
performed by judges-primarily, ruling
on
motions.
See Schottel v. Young, 687 F.3d 370,
373 (8th Cir. 2012) (holding that when a judge
rules on a motion, it is done in a judicial capacity).
Indeed Plaintiffs only interaction with any of the
Federal
Judge Defendants arose out of his
extensive litigation, and there is nothing to
suggest that he has ever dealt with the Federal
Judge Defendants outside of their judicial
capacity.

67a
Plaintiffs only argument with regard
to absolute judicial
immunity is that the
Federal Judge Defendants lacked jurisdiction
because they acted "in a political party of spirit."
Doc.
69, p. 13. However, this argument is
unavailing. Plaintiff pleads only a conclusory
allegation that the Judges "were
and are
documented democrats." Doc. 6, p. 20. He does not
plead any facts to serve as the basis for such a
conclusion, but even if it is accepted as true, there
is nothing to suggest that the Judges' political
affiliations had any affect on their decisions.
Put simply,
Plaintiff failed to plead
any
connection between the politics he alleges and
the Judges' rulings,
much less that
by
virtue of their political
affiliations,
the
Judges acted in the complete absence
of
jurisdiction, particularly in light of the fact that
there is evidence in the record that they did
have jurisdiction. Therefore, the Federal Judge
Defendants are immune to Plaintiffs suit for
damages and injunctive relief.
As absolute judicial immunity bars Plaintiffs
action against the Federal Judge Defendants, all
claims against the Federal Judge Defendants
are dismissed.4
C.

Plaintiffs Sur-Replv

9, 2018, Plaintiff filed a
On August
sur-reply brief without first seeking leave of the
Court. Under the local rules, a party must
always seek leave before filing a sur-reply,

68a
and therefore

4
The Court also dismisses all claims
the Honorable Lawrence Paul Zatkoff, who
away on January 22, 2015.

against
passed

Plaintiffs brief is stricken as unauthorized.
Local Rule 7 .0.
III.

See

Conclusion

For the foregoing reasons, Plaintiffs motion
for default judgment, Doc. 47, is denied, and the
claims against the, Federal Judge Defendants are
dismissed in their entirety.

/s/ Nanette K. Laughrey
NANETTE K. LAUGHREY
United States District Judge

Dated: August 16, 2018
Jefferson City, Missouri

69a
Appendix P
IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT of MISSOURI

JOSEPH RAIMONDO
Plaintiff
Case NO; 17-4254-CV-NKL.

v.

U. S. DISTICT CHIEF JUDGE,
DENISE PAGE HOOD et al„
Defendants

JUDGMENT IN A CIVIL CASE

Jury Verdict,
This action came
before the Court for a trial by jury.

X
Decision by Court. This action came to
trial or hearing before the Court. The issues have
been determined and a decision has been made.

IT IS ORDERED AND ADJUDGED that
pursuant to the Order, Doc. 57, entered by the
Honorable Nanette K. Laughrey on June 25, 2018,
Defendants Village of Armada, Macomb County,

70a
Ben Delecke,James Meyerand, Thomas Meyers,
and Lt. Lynn Baumgarten's Motion to Dismiss,
Doc. 10, is granted. It is further
ORDERED that pursuant to the Order, Doc.
58, entered by the Honorable Nanette K. Laughrey
on June 25, 2018, Defendant Capac State Bank's
Motion to Dismiss, Doc. 13, is granted,
It is
further
ORDERED that pursuant to the Order, Doc.
59, entered by the Honorable Nanette
K.
Laughrey on June 25, 2018, Defendant Democratic
National Committee's Motion to Dismiss, Doc. 17,
is granted. It is further
ORDERED that pursuant to the Order, Doc.
71, entered by the Honorable Nanette K. Laughrey
on August 7, 2018, Defendants IRS and former
IRS Commissioner John Koskinens motion to
dismiss, Doc. 41, is granted.
ORDERED that pursuant to the Order, Doc.
73, entered by the Honorable Nanette K. Laughrey
on August 16, 2018, Plaintiffs Motion for Default
Judgment, Doc. 47, is DENIED. The Claims
against the Federal Judge Defendants are all
dismissed with prejudice.
Date: August 21, 2018
PAIGE WYMORE-WYNN
Acting Clerk of Court

